                   AUDIT OF SBA’S COMPLIANCE WITH JOINT
                   FINANCIAL MANAGEMENT IMPROVEMENT
                      PROGRAM PROPERTY MANAGEMENT
                           SYSTEM REQUIREMENTS

                             AUDIT REPORT NUMBER 3-34

                                        JULY 23, 2003




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector
General.
Center (DFC) in accordance with SOP 20 13 3 – The Capitalized Accounting Program. The
DFC Administrative Accounting Branch uses the Administrative Accounting Property (AAP)
system to record capitalized property transactions. SBA’s Joint Accounting and Administrative
Management System (JA2 MS) was the only asset that met the capitalization threshold. SBA
valued JA 2MS at $6.83 million in its FY 2002 financial statements.


                      OBJECTIVES, SCOPE AND METHODOLOGY

        The objective of the audit was to assess SBA’s compliance with applicable Federal
requirements including JFMIP’s Property Management Systems Requirements. Specifically, the
audit addressed the adequacy of SBA’s property management system in the following areas:

•   Functional Requirements,
•   Acquiring and Receiving Property,
•   Managing and Accounting for Property, and
•   Interface Requireme nts.

        To accomplish this objective, we followed the General Accounting Office (GAO) –
Checklist for Reviewing Systems Under the Federal Financial Management Improvement Act ,
developed from the JFMIP – Property Management Systems Requirements source document.
We reviewed Federal Accounting Standards Advisory Board (FASAB) PP&E accounting
standards, Office of Management and Budget (OMB) circulars related to property management,
SBA property management SOPs and other regulations concerned with property management.
We interviewed key SBA property officers and determined the universe of SBA’s owned or
leased property with the exception of property acquired through its lending programs. We tested
property transactions through SBA’s FAAS and evaluated the adequacy of property information
contained in the system. Our audit was conducted at SBA’s Washington Headquarters’ Office
between April 2002 and March 2003. We performed the audit in accordance with Government
Auditing Standards.


                                       AUDIT RESULTS

        We concluded that SBA’s property management system complied with the requirements
of the JFMIP in many areas. However, SBA’s property management system was not compliant
with requirements for feeding property data into SBA’s core financial system and lacked
necessary cost control and accountability features. We found that SBA’s property management
systems are also fragmented and that no single agency-wide functional system is used. Agency
property is managed at multiple locations, using different applications, each with varying degrees
of accountability and control. As a result, SBA does not fully comply with Federal property
management requirements and is unable to ensure all of its assets are properly safeguarded.




                                                2
Finding 1: SBA Property Management Systems do not Interface

        SBA’s two property management systems, FAAS and AAP, operate independently of one
another without interfacing. Additionally, the FAAS system does not interface with SBA’s core
financial system, JA 2MS, beyond the level of recording the cost of property at the time of
acquisition. As a result, SBA’s property records are fragmented and amounts reported in agency
financial statements do not easily link or reconcile with the different property management
systems.

        According to the JFMIP framework, all property systems that capture, use, and pass
information should be linked. Additionally, JFMIP recommends that these systems interface
with the agency’s core financial system. Agency financial management systems including
property manage ment systems must be linked together electronically to be effective and
efficient. The goal of interfacing these systems is to promote a single point of entry to populate
the property management database while populating other financial management databases at the
same time. This facilitates the ease of reconciliation between systems to ensure data accuracy.

        SBA’s FAAS is a good example of a property management system promoting a single
point of entry to populate the property management database. However, the FAAS does not link
or interface with SBA’s core financial management or property management system.

Recommendation:

1A.    We recommend that the Chief Financial Officer (CFO) either establish and implement an
       interface for the FAAS and the AAP with JA 2MS, or consolidate the reporting of all
       property management functions in JA2MS.

Management Response:

        The CFO agreed with the recommendation that all property systems that capture, use, and
pass information should be linked. He stated, however, that SBA will not be able to address this
recommendation until after the completion of more critical financial management improvements.
The CFO’s response is included in its entirety as Attachment 1.

Assessment of Management’s Response

       The CFO’s comments are responsive to the recommendation.




                                                3
Finding 2: Property, Plant and Equipment records are not Always Recorded in SBA
           Property Management Systems

        SBA was not fully recording necessary property information in FAAS. This occurred
even though SBA’s FAAS is capable of capturing detailed property information including:
acquisition cost, description, acquisition date, estimated life and depreciation. As a result,
59,475, or 84 percent, of 70,962 FAAS property records did not include associated costs and
50,043, or 71 percent of FAAS property records had default acquisition dates.

       The Federal Managers' Financial Integrity Act (P.L. 97-255) establishes specific
requirements with regard to management controls. The agency head must establish controls that
reasonably ensure that assets are safeguarded against waste, loss, unauthorized use or
misappropriation.

       The JFMIP framework provides mandatory general requirements for property
management systems to support the recording of beginning balances, acquisitions, withdrawals,
and calculate ending balances expressed in values and physical units. This information is
necessary to make property records complete and fully compliant with asset accountability
requirements.

         SBA property management officers generally omit the required information when
creating property records in the FAAS system. This may hinder SBA officials in identifying and
protecting SBA assets from waste, loss and unauthorized use or misappropriation. Additionally,
the JFMIP requires that property management systems readily calculate gain or loss estimates at
the time of disposal, retirement, sale, exchange or donation of assets. Since property cost data
was not recorded at the time of its acquisition, SBA’s property management system did not
satisfy the JFMIP requirements.

Recommendations:

       We recommend that the Assistant Administrator for Administration:

2A.    Develop or utilize edit checks for detecting incomplete recording of accountable property
       in the Fixed Asset Accounting System.

2B.    Inform all property managers of the importance of recording property values and
       acquisition dates in the Fixed Asset Accounting System.

Management Response:

      These recommendations were initially made to the CFO in our draft report. Based upon
the CFO’s response, we met with the Assistant Administrator for Administration. The Assistant
Administrator for Administration agreed with the finding and recommendations.




                                                4
Assessment of Management’s Response

      The Assistant Administrator for Administration’s comments are responsive to the
recommendations.


Finding 3: Current Asset Capitalization Thresholds are not consistent with SBA’s
           Standard Operating Procedures

         The limits on capitalized property, inc luding internal use software, have been increased
twice without adjusting these limits in SBA’s SOP 20 13 3 – Capitalized Property Accounting
Program. The limits were raised from $5,000 to $50,000, and then further raised to $250,000
with depreciation over three years for internal use software, an increase of 5,000 percent. SBA
officials changed the capitalization threshold for both tangible property and internal use software
property using internal decision documents. As a result, SBA’s SOP 20 13 3 was not updated to
reflect these changes.

       SBA’s SOP 00 23 5 – SBA Directives Management system requires that a partial revision
to an SOP is necessary as soon as a program office changes program procedures or policies.

         Since SBA’s SOP 20 13 3 was not partially revised under established requirements, SBA
is not in compliance with its own internal guidance regarding revision of operating procedures.
It is important that SBA increase its diligence when changing internal control procedures. SOPs
are an integral part of the SBA internal control environment and must be updated to maintain
consistency and ensure adherence to policies and requirements to promote a sound control
environment.

Recommendation:

3A.    We recommend that the CFO revise SBA Standard Operating Procedure 20 13 3 to
       reflect changes in policies and ensure that processes required for managing property are
       appropriately updated.

Management Response:

        The CFO agreed to update Standard Operating Procedure 20 13 3 to reflect current SBA
capitalization thresholds.

Assessment of Management’s Response:

       The CFO’s comments are responsive to the recommendation.




                                                 5
Finding 4: FAAS operational controls are Inadequate

        The FAAS system had a number of operational control deficiencies. A single
accountable property officer at OAS had Master User access to the FAAS system. This
individual had full read, write, edit and delete capabilities for all property records. While this
access was determined reasonable for administrative purposes, there was no separate oversight of
this function. As a result, the Master User’s actions within the system were not being monitored
by OAS management.

        SBA SOP 00 02 2 – Internal Control Systems, requires that management shall maintain
effective systems of internal control consistent with standards prescribed by GAO as an integral
part of management functions. The SOP concludes that segregation of duties over process and
review transactions, including the issue, receipt, and custody of assets and comparison of
physical and recorded assets may contribute to an effective internal control environment.

         The FAAS Master User was the only individual at SBA that had full authorization,
recording and reviewing privileges over the system. To maintain an effective internal control
environment in its property management system, SBA should follow its internal operating
procedures. In this regard, SBA should delegate these responsibilities among independent
officers and perform appropriate monitoring of adherence to its operating procedures and
controls.

Recommendation:

4A.      We recommend that the Assistant Administrator for Administration designate a FAAS
         security manager to review audit logs and the activities of the FAAS Master User to
         monitor adherence to accountable property requirements.

Management Response:

        This recommendation was initially made to the Chief Information Officer in our draft
report. Based upon the CIO’s response, we met with the Assistant Administrator for
Administration. The Assistant Administrator for Administration agreed with the finding and
recommendations. The CIO's response is included in its entirety as Attachment 2.

Assessment of Management’s Response

      The Assistant Administrator for Administration’s comments are responsive to the
recommendation.

                                                      ***
         The findings included in this report are the conclusions of the Auditing Division based upon the auditors’
review of the agency’s operating procedures and activities related to safeguarding accountable property. The
findings and recommendations are subject to review and implementation of corrective action by your office
following the existing Agency procedures for audit follow-up and resolution.




                                                         6
         Please provide us your management decision for each recommendation within 30 days. Your management
decisions should be recorded on the attached SBA Forms 1824, “Recommendation Action Sheet,” and show either
your proposed corrective action and target date for completion, or explanation of your disagreement with our
recommendations.


       Should you or your staff have any questions, please contact Robert G. Hultberg, Director, Business
Development Programs Group, at (202) 205-7577.


Attachments




                                                       7
                                                                                                                       Attachment 3


                                                 REPORT DISTRIBUTION


Recipient                                                                                                 No. of Copies

Associate Deputy Administrator for Management
and Administration...................................................................................................1

General Counsel.......................................................................................................3

Chief Information Officer ........................................................................................1

General Accounting Office ......................................................................................1

Office of the Chief Financial Officer
Attention: Jeffrey Brown ........................................................................................1
